No. 20-1438
In the

Supreme Court of the United States
__________________
TINA CATES,
v.

Petitioner,

BRUCE D. STROUD, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

RESPONDENTS’ BRIEF IN OPPOSITION
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
FRANK A. TODDRE II
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Respondents
September 1, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
1. Whether the Ninth Circuit correctly determined
that decisions of three other courts of appeals on a factspecific application of the Fourth Amendment are
insufficient to establish a “robust consensus” to clearly
establish a constitutional right for purposes of qualified
immunity.
2. Whether qualified immunity may be overcome by
application of generalized Fourth Amendment
principles when a reasonable correctional officer could
have believed the challenged search was lawful.
3. Whether this case, which comfortably fits within
the scope of the doctrine of qualified immunity, is a
proper vehicle to revise or revisit the doctrine’s efficacy
or scope.

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

THE NDOC DEFENDANTS CONDUCT A STRIP
SEARCH OF CATES BASED ON CREDIBLE
CONFIDENTIAL INFORMATION THAT SHE MAY
TRY TO TRANSFER CONTRABAND INTO THE
PRISON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

II.

THE DISTRICT COURT GRANTS SUMMARY
JUDGMENT ON QUALIFIED IMMUNITY . . . . . . . 5

III.

THE NINTH CIRCUIT DETERMINES THAT THE
NDOC D EFENDANTS V IOLATED CATES ’
FOURTH AMENDMENT RIGHTS . . . . . . . . . . . . . 6

IV.

THE NINTH CIRCUIT AFFIRMS AFTER
CONCLUDING THAT THE RIGHT IT DEFINED
HAD NOT YET BEEN CLEARLY ESTABLISHED IN
THE NINTH CIRCUIT . . . . . . . . . . . . . . . . . . . . . 7

REASONS FOR DENYING THE PETITION. . . . . . 9
I.

AT BEST, CATES PRESENTS A LOPSIDED SPLIT
THAT FAVORS THE NDOC DEFENDANTS ON
WHETHER SISTER-CIRCUIT PRECEDENT ALONE
CLEARLY ESTABLISHES A CONSTITUTIONAL
RIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
II.

CATES FAILS TO ESTABLISH AN APPRECIABLE
SPLIT ON WHEN GENERAL PRINCIPLES
SUFFICIENTLY DEFINE A CLEARLY
ESTABLISHED RIGHT TO A PARTICULAR SET OF
FACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

III.

THE NINTH CIRCUIT’S OPINION FITS
COMFORTABLY WITHIN THE SCOPE OF
QUALIFIED IMMUNITY, MAKING THIS CASE A
POOR VEHICLE FOR DECIDING ALL THREE
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . 18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iv
TABLE OF AUTHORITIES
CASES
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . 14, 17, 18
Bell v. Wolfish,
441 U.S. 520 (1979). . . . . . . . . . . . . . . . . . . . . . . 20
District of Columbia v. Wesby,
138 S. Ct. 577 (2018). . . . . . . . . . . . . . . . . . . . . . 11
Estate of Escobedo v. Bender,
600 F.3d 770 (7th Cir. 2010). . . . . . . . . . . . . . . . 13
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . . . . . 20
Hope v. Pelzer,
536 U.S. 730 (2002). . . . . . . . . . . . . . . . . . . . 15, 16
Kopec v. Tate,
361 F.3d 772 (3d Cir. 2004) . . . . . . . . . . . . . . . . 13
Maldonado v. Fontanes,
568 F.3d 263 (1st Cir. 2009) . . . . . . . . . . . . . . . . 12
Marriott By and Through Marriott v. Smith,
931 F.2d 517 (8th Cir. 1991). . . . . . . . . . . . . . . . 17
McCue v. City of Bangor,
838 F.3d 55 (1st Cir. 2016) . . . . . . . . . . . . . . 12, 13
Nelson v. Correctional Medical Services,
583 F.3d 522 (8th Cir. 2009). . . . . . . . . . . . . . . . 13
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . . . . . . 20

v
Sharp v. County of Orange,
871 F.3d 901 (9th Cir. 2017). . . . . . . . . . . . . . . . . 8
Spear v. Sowders,
71 F.3d 626 (6th Cir. 1995). . . . . . . . . . . . . . . . . 17
Taylor v. Riojas,
141 S. Ct. 52 (2020). . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Prevo,
435 F.3d 1343 (11th Cir. 2006). . . . . . . . . . . . . . 15
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020). . . . . . . . . . . . . . . . . . . . . 19
Williams v. Bitner,
455 F.3d 186 (3d Cir. 2006) . . . . . . . . . . . . . . . . 13
Z.J. ex rel. Jones v. Kan. City Bd. of Police
Comm’rs, 931 F.3d 672 (8th Cir. 2019) . . . . . . . 13
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
INTRODUCTION
The Ninth Circuit’s opinion affirming the judgment
for the Respondents (NDOC Defendants) is a textbook
application of established principles governing
qualified immunity. The lower court’s analysis fits
comfortably within the core of qualified immunity.
This case is not a case that falls on the doctrine’s
fringes, making it a poor vehicle for resolving specific
questions about the application of qualified immunity,
let alone reconsidering the efficacy or scope of the
doctrine as a whole.
The dispositive issue here is whether clearly
established law put reasonable corrections officials in
the Ninth Circuit on notice that a prison visitor must
be given the option of foregoing their visit before
officers conduct an otherwise lawful strip search.
Applying the first step of the qualified immunity
analysis to define the constitutional right at issue, the
Ninth Circuit concluded that the NDOC Defendants
violated Cates’ rights under the Fourth Amendment by
not giving her the option of canceling her prison visit to
avoid undergoing a strip search the court presumed to
be lawful. But the panel—led by Judge William
Fletcher—affirmed the judgment based on a
straightforward, concise, and principled application of
the second step of qualified immunity.
The lower court’s opinion rejected the proposition
that opinions from three other circuits clearly
established the right that the Ninth Circuit identified
in this case. The Court also rejected the proposition
that established Fourth Amendment principles
sufficiently notified the NDOC Defendants that

2
searching Cates without giving her the option of
leaving the prison violated the Fourth Amendment.
Neither of those conclusions is controversial. Yet
Cates asks this Court to review the particulars of the
Ninth Circuit’s qualified immunity analysis, while also
seeking a wholesale review of the doctrine of qualified
immunity. But this case is not worthy of this Court’s
review.
Cates at best identifies a lopsided split of authority
that favors the NDOC Defendants. And this case
makes a poor vehicle for resolving the questions
presented because (1) the Ninth Circuit’s analysis
explains that its own precedent left room for reasonable
debate on the lawfulness of the challenged conduct, and
(2) Cates neither pleaded, nor briefed, the issues the
Ninth Circuit decided here.
This Court should deny the petition.
STATEMENT OF THE CASE
I.

THE NDOC DEFENDANTS CONDUCT A STRIP
SEARCH OF CATES BASED ON CREDIBLE
CONFIDENTIAL INFORMATION THAT SHE MAY
TRY TO TRANSFER CONTRABAND INTO THE
PRISON.

On February 19, 2017, Cates went to visit her
boyfriend, Daniel Gonzales, a prisoner at Nevada’s
High Desert State Prison (HDSP). App. 2a. But
unbeknownst to Cates, a non-party correctional officer
began investigating Cates based on information he
received from two credible, confidential sources that

3
Cates may try to introduce drugs or contraband into
the prison. App. 29a.
Relying on that information, a criminal investigator
from the Office of the Inspector General, Arthur
Emling, Jr., applied for a warrant, asserting that he
had probable cause to believe Cates’ person or vehicles
likely contained illegal controlled substances. App.
29a. A justice of the peace in Las Vegas agreed that
probable cause existed and signed a search warrant
authorizing a search of Cates’ person and “any vehicles
used and registered by Cates to transport herself to”
HDSP. App. 39a.
Upon entering the institution, Cates signed a
standard “Consent to Search, DOC-1615,” stating the
following:
I, the undersigned, being from free from
coercion, duress, threats or force of any kind, do
hereby freely and voluntarily consent to the
search of my person, vehicle and other property
which I have brought onto prison grounds. I
agree that the search maybe conducted by duly
authorized Correctional Officers of the
Department of Corrections or by other law
enforcement officers specifically authorized by
the Warden. I understand that if I do not
consent to the search of my person, vehicle or
other property, I will be denied visitation on this
date and may also be denied future visits
pursuant to Administrative Regulation 719.
App. 3a-4a.

4
Then Emling, along with female correctional officer
Myra Laurian, approached Cates and asked her to
follow them outside the HDSP visitation area. App. 5a.
When Emling and Laurian asked Cates to step outside
the waiting prison lobby, Emling informed Cates that
he had reason to believe Cates was bringing illegal
drugs/contraband into HDSP. App. 29a. Then, Laurian
took Cates to the women’s bathroom to perform a strip
search. App. 5a, 29a.
During the search, Laurian asked Cates to remove
her tampon for the full body search and did not provide
a replacement. App. 5a. Cates alleges that Laurian
provided her only with toilet paper and that she (Cates)
bled through her clothes while driving home, causing
distress and embarrassment. App. 5a-6a.
After the personal search, Emling searched Cates’
vehicle in the HDSP parking lot. App. 6a. Emling had
Cates wait with Laurian in HDSP administration
during the search. App. 6a.
Emling removed Cates’ mobile phone from the
vehicle and asked to search the phone. App. 6a.
Although Cates had signed a form that confirmed her
consent to searching her personal property, she refused
to permit Emling to search the phone. App. 6a, 30a.
Emerling honored Cates’ decision to revoke her consent
and returned the phone to Cates without searching it.
App. 6a, 30a.
Emling then told Cates that her visitation privileges
were being terminated and asked her to leave the
prison grounds. App. 6a, 30a. Associate Warden
Stroud later sent Cates a letter advising her that

5
NDOC suspended her visiting privileges indefinitely
until she obtained written permission from the
Warden. App. 30a.
II.

THE DISTRICT COURT GRANTS SUMMARY
JUDGMENT ON QUALIFIED IMMUNITY.

Cates filed a complaint raising several federal
constitutional claims under 42 U.S.C. § 1983 and other
state law claims. App. 8a. The federal constitutional
claims included a basic challenge to the strip search
under the Fourth Amendment but included no
allegation that Cates was not given an opportunity to
leave. App. 35a-38a; see also 2 EOR 034.
The district court granted the NDOC Defendants’
motion for summary judgment based on qualified
immunity. App. 28a-58a. The district court rejected
the Fourth Amendment claim challenging the strip
search because the NDOC Defendants “only needed
reasonable suspicion that Plaintiff possessed
contraband,” and Cates did “not dispute that
Defendants had reasonable suspicion to perform the
strip search.” App. 37a-38a. And the district court
rejected Cates’ reliance on prison regulations governing
searches of prison visitors because “violations of prison
administrative regulations do not amount to a federal
constitutional violation.” App. 38(a) (citing cases).
Finally, although the NDOC Defendants never
executed the search warrant, the district court
recognized that a judicial officer determined that the
NDOC Defendants had shown probable cause for a
search, while they only needed reasonable suspicion to
conduct the search. App. 38(a).

6
III.

THE NINTH CIRCUIT DETERMINES THAT THE
NDOC DEFENDANTS VIOLATED CATES’ FOURTH
AMENDMENT RIGHTS.

The Ninth Circuit exercised its discretion to engage
in the first step of the analysis and define the scope of
the right at issue. App. 9a-24a. The appellate court
first determined that not proactively giving Cates the
option to leave rather than being subjected to a strip
search violated the Fourth Amendment. App. 23a-24a.
But after further determining that this right was not
yet clearly established in the Ninth Circuit, the court
affirmed the district court’s judgment based on
application of qualified immunity. App. 24a-25a.
In analyzing the claim on the merits, the court
recognized general Fourth Amendment principles that
prisoners and visitors have diminished constitutional
protections, but that they do not shed all of their
constitutional rights at the entrance to the prison.
App. 11a-12a. It also noted that limitations on
constitutional protections must relate to legitimate
institutional goals and needs, such as safety. App. 11a12a. Then the court explained the continuum of
searches and the degree of the related justifications
needed to conduct those searches, distinguishing the
use of pat-downs and metal detectors from a “[v]isual
body cavity search, such as the search to which Cates
was subjected” and the imposition of such searches on
both prisoners and visitors. App. 13a-15a.
The Court ultimately adopted the rationale of the
Sixth, Seventh, and Eighth Circuits, recognizing that
distinctions between visitors and prisoners affect the
justification required to conduct intrusive searches.

7
App. 15a-24a. The court followed the Sixth Circuit’s
stated rationale—later adopted by the Seventh
Circuit—that a visitor must be given the option of
foregoing the visit, rather than undergo an
administrative search grounded upon prison safety and
security. App. 18a-19a. As a result, because the NDOC
Defendants did not give Cates the option of leaving
rather than undergoing a strip search, the NDOC
Defendants violated Cates’ rights under the Fourth
Amendment. App. 18a-20a, 23a-24a.
Finally, the Court acknowledged that under other
circumstances “legitimate security needs” may justify
“a refusal to allow someone to depart rather than
submit to a search.” App. 20a-23a. Citing its own
decision addressing a search of a “would-be airplane
passenger” after “he entered the security area, even
though he expressed a desire to leave rather than be
subjected to a search,” the court reconciled its decision
in this case with that of the airline passenger. App.
20a-21a. But the court also recognized that the
Eleventh Circuit had done the opposite—extending the
same rationale the Ninth Circuit expressed with airline
security to a vehicle search in a prison parking lot.
App. 21a-22a.
IV.

THE NINTH CIRCUIT AFFIRMS AFTER
CONCLUDING THAT THE RIGHT IT DEFINED
HAD NOT YET BEEN CLEARLY ESTABLISHED IN
THE NINTH CIRCUIT.

Moving to the second step of qualified immunity,
the Ninth Circuit determined that—where a strip
search of a prison visitor is conducted pursuant to a
reasonable suspicion—a Fourth Amendment right to

8
leave the prison and avoid the search was not yet
established within the Ninth Circuit. App. 24a-25a.
Starting with this Court’s and its own precedents on
strip searches, the court recognized that “when Cates
was subject to the strip search at issue in this case,
there was no case in this circuit where we had held
that prison visitor had the right to leave the prison
rather than undergo a strip search conducted on the
basis of reasonable suspicion.” App. 24a. Further citing
authority of this court that a direct factual analog is
not required, but that available precedent must put the
issue beyond debate, the court (1) acknowledged that it
reached its decision here based on “differences,” not
“similarities” between this case and other “[c]ases
allowing strip searches of detainees,” and (2) cited prior
Ninth Circuit precedent noting that application of this
exception to the general need for on point precedent is
“‘especially problematic in the Fourth-Amendment
context’ where officers are confronted with ‘endless
permutations of outcomes and responses.’” App. 24a25a (quoting Sharp v. County of Orange, 871 F.3d 901,
911-12 (9th Cir. 2017)).
Finally, the Court acknowledged that existing case
law held that prison officials may not conduct a strip
search of a prison visitor without reasonable suspicion.
App. 25a. But the Court declined to decisively conclude
that reasonable suspicion existed, instead
acknowledging that “it was not unreasonable for
Laurian to have believed that there was reasonable
suspicion, given that a search warrant (though
unexecuted) had been issued for a search of Cates’s
‘person’ for drugs.” App. 25a. The Court concluded its
qualified immunity analysis by noting the absence of

9
(1) controlling circuit precedent, and (2) “sufficiently
robust consensus of persuasive authority in other
circuits, holding that prior to a strip search a prison
visitor—even a visitor as to whom there is a reasonable
suspicion—must be given an opportunity to leave the
prison rather than be subjected to the strip search.”
App. 25a. As a result, the Ninth Circuit “affirm[ed] the
district court’s award of summary judgment to
defendants.” App. 27a.
REASONS FOR DENYING THE PETITION
The detailed, specialized inquiry the panel
conducted on whether the challenged conduct here
violated the Fourth Amendment proves that this case
is just the kind of case that falls within the core of
qualified immunity. As the Ninth Circuit’s decision
establishes, without clear, authoritative guidance on
the discrete legal issue it decided—whether
correctional officers must give a prison visitor the
choice to leave the prison before conducting a strip
search—the court correctly concluded that reasonable
officers presented with the facts here could have
believed that their conduct was not proscribed by the
law. The law governing their conduct was not “beyond
debate.”
This is not a good case for addressing the convoluted
question of when—if at all—the decisions of sister
circuits have clearly established the parameters of a
particular constitutional right when applying qualified
immunity. Nor is it a good case for revisiting the
balance this Court has struck between applying
established principles at too high a level of generality
and not requiring a precise factual analog when a

10
general constitutional rule applies with obvious clarity
to challenged conduct. As the Ninth Circuit’s legal
analysis on prong one of qualified immunity analysis
shows, before issuance of the opinion in this case, there
were legitimate reasons that officers within the Ninth
Circuit, presented with the facts here, could have
reasonably believed that their conduct was lawful.
For the same reasons, this case is a poor vehicle for
revisiting the efficacy and scope of qualified immunity
in general. Save for a wholesale abandonment of
qualified immunity, the changes Petitioner proposes for
qualified immunity would not change the outcome here.
This case fits comfortably within the core of qualified
immunity—maintaining accountability of public
officials but shielding them from suit where they have
exercised their authority reasonably.
The Ninth Circuit exercised its discretion to conduct
a merits analysis under the first prong of qualified
immunity, resolving an open question of constitutional
law in that jurisdiction. And without the guidance of
the lower court’s opinion, which now clearly establishes
the relevant Fourth Amendment principle within the
Ninth Circuit, the NDOC Defendants’ actions were
neither unreasonable, nor obviously unlawful.
Finally, this case is a poor vehicle for resolving any
of the questions presented. Cates did not actually
plead the claim her petition is based upon. And she did
not present the issues she asks this Court to review in
her appellate briefing.
This Court should deny the petition.

11
I.

AT BEST, CATES PRESENTS A LOPSIDED SPLIT
THAT FAVORS THE NDOC DEFENDANTS ON
WHETHER SISTER-CIRCUIT PRECEDENT ALONE
CLEARLY ESTABLISHES A CONSTITUTIONAL
RIGHT.

Nearly all the circuit cases Cates cites in support of
her argument that three opinions from sister circuits
are enough to establish a “robust consensus” that
clearly establishes a constitutional right do not actually
support Cates’ position. As this Court’s opinions
recognize, the purpose of the second prong of the
qualified immunity analysis is determining whether
the law that existed at the time the challenged conduct
occurred sufficiently put a reasonable person on notice
that the challenged conduct is proscribed by the law.
Taylor v. Riojas, 141 S. Ct. 52, 53 (2020).
This Court has previously hinted that, without any
decision of this Court or controlling circuit precedent,
a “robust consensus” of persuasive authority from
outside the relevant circuit may be sufficient to clearly
establish a legal principle to undercut a qualified
immunity defense. District of Columbia v. Wesby, 138
S. Ct. 577, 589-90 (2018). But this Court has not yet
drawn specific lines on when such a robust consensus
exists. Wesby, 138 S. Ct. at 593 n.8. And this is not a
good case to decide the issue because, as the Ninth
Circuit discussed, there is a competing rationale that
could support courts reaching a different conclusion on
the Fourth Amendment issue presented here. App.
20a-22a.
Only one of the circuits that Cates identifies for
support appears to have actually decided this issue. In

12
Maldonado v. Fontanes, 568 F.3d 263, 270-71 (1st Cir.
2009), the First Circuit looked to only out-of-circuit
precedent in finding a clearly established right under
the Fourth Amendment. But that case is easily
distinguished.
The First Circuit relied on out-of-circuit precedent
to reach two conclusions, neither of which is
controversial: (1) a family pet is an “effect” within the
scope of the Fourth Amendment, and (2) killing a
family pet effects a seizure in applying the Fourth
Amendment. Maldonado, 568 F.3d at 270-71. The
Ninth Circuit’s analysis defining the scope of the right
at issue shows that the underlying Fourth Amendment
issue here is not as clear cut. Giving someone—say an
airline passenger or a prison visitor—the opportunity
to abandon an attempt to enter a sensitive or secure
area upon confrontation by security officials creates
opportunities for identifying and exploiting weaknesses
in security measures. App. 20a-22a. The complexity of
this issue—and the disagreement about it in the other
circuits’ decisions—means that decisions from three
other circuits do not clearly establish the law governing
Petitioner’s circumstances, unlike the more
straightforward issue addressed by the First Circuit in
Maldonado.1
1

With no other discussion, Cates also cites McCue v. City of
Bangor, 838 F.3d 55 (1st Cir. 2016). There, relying on Maldonado,
the First Circuit cited decisions from the Seventh, Ninth, and
Tenth circuits for support in concluding “that exerting significant,
continued force on a person’s back while that person is in a facedown prone position after being subdued and/or incapacitated
constitutes excessive force” to be “clearly established in September
2012.” McCue, 838 F.3d at 64-65.
But McCue is also

13
The cases Cates cites from the Third, Seventh, and
Eighth circuits do not, as she suggests, hold that
decisions from a few other circuits are sufficient—by
themselves—to clearly establish a federal right.
Rather, each of those cases involves a hybrid analysis
with the circuit court analyzing this Court’s and its
own precedents to identify general governing
principles, while also relying on out-of-circuit precedent
for persuasive support on what those general principles
clearly establish. Williams v. Bitner, 455 F.3d 186,
191-94 (3d Cir. 2006); Kopec v. Tate, 361 F.3d 772, 77678 (3d Cir. 2004); Estate of Escobedo v. Bender, 600
F.3d 770, 779-86 (7th Cir. 2010); Nelson v. Correctional
Medical Services, 583 F.3d 522, 531-34 (8th Cir. 2009);
Z.J. ex rel. Jones v. Kan. City Bd. of Police Comm’rs,
931 F.3d 672, 683-86 (8th Cir. 2019). Indeed, not one
of the controlling opinions in those cases mentions, let
alone makes a specific holding about, precedents of
other circuits creating a “consensus” that satisfies the
second prong of qualified immunity.
For these reasons, the opinions Cates cites do not
support her argument that there is a well-defined split
on when out-of-circuit opinions will meet the threshold
of establishing a “robust consensus” in applying the
“clearly established” prong of qualified immunity.
Although the First Circuit authority Cates cites is

distinguishable. In addition to relying on out-of-circuit precedent,
the First Circuit identified statements the officers made about
“excited delirium” that “suggest their knowledge of the condition
and the associated risks,” which contributed to the existence of a
material factual dispute on “whether qualified immunity is
proper.” Id. at 65.

14
distinguishable, Cates at best presents a lopsided split
in the NDOC Defendants’ favor—with the First Circuit
being an outlier. Cates’ argument that the outcome of
her case would have been different in the Third,
Seventh, and Eighth Circuits is unfounded.
The first question presented does not warrant this
Court’s review.
II.

CATES FAILS TO ESTABLISH AN APPRECIABLE
SPLIT ON WHEN GENERAL PRINCIPLES
SUFFICIENTLY DEFINE A CLEARLY
ESTABLISHED RIGHT TO A PARTICULAR SET OF
FACTS.

Cates’ discussion of the second question presented
fares no better. Although the court did not decide
whether reasonable suspicion existed, it assumed that
such suspicion existed in conducting its Fourth
Amendment analysis. App. 23a. The sole question the
Ninth Circuit decided is whether Cates had a clearly
established right under the Fourth Amendment to be
given the choice of leaving the prison after Emling and
Laurian confronted her and to thus avoid being
subjected to a strip search. App. 23a-24a. This Court
has said that existing precedent must put the “question
beyond debate” when there is not controlling authority
on point. Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).
The Ninth Circuit held that the right it defined here
had not been clearly established in the Ninth Circuit.
In reaching that conclusion, the court noted that
“differences” (not “similarities”) between this case and
existing cases allowing strip-searches led it to the
conclusion that the search here violated Cates’ rights

15
under the Fourth Amendment. App. 24a. The court also
noted its prior recognition that the fact-specific
application of the Fourth Amendment makes it hard to
apply the exception to the requirement for on point
controlling precedent to claims like this one. App. 24a25a.
Cates challenges that conclusion. After noting the
Ninth Circuit’s suggestion that its conclusion naturally
flowed from its “precedent on prison searches and
screening measures in sensitive facilities more
generally,” Cates discusses Ninth Circuit precedent on
the invasive nature of strip searches and the need for
a link to the administrative goal of prison safety. Pet.
at 22-23.
But the Ninth Circuit’s analysis—
particularly its discussion of (1) the rationale from its
own precedent on searches at airport terminals, and
(2) the Eleventh Circuit’s decision in United States v.
Prevo, 435 F.3d 1343 (11th Cir. 2006), which extends
the airport terminal rationale to the prison-visitor
context—shows that reasonable officers in the Ninth
Circuit could have believed that the Fourth
Amendment did not require them to proactively offer
Cates the option of leaving to avoid being searched.
App. 20a-23a.
Cates also turns to prison regulations to suggest
that the NDOC Defendants should have known their
conduct was unlawful, citing Hope to support the
relevance of prison regulations in deciding whether the
law was clearly established. Pet. at 23. But Hope is
unavailing. There, this Court assessed whether the
law had clearly established that handcuffing a prisoner
to a hitching post for disruptive behavior constituted

16
cruel and unusual punishment. Hope v. Pelzer, 536
U.S. 730, 733 (2002).
This Court did consider the existence of a relevant
prison regulation in deciding whether a prison
regulation supported its conclusion on prong two of
qualified immunity. Id. at 741, 743-44. But it
combined this together with several other factors that
supported the Court’s conclusion. This Court
considered the prison regulation in context with
controlling circuit precedent juxtaposing (1) coercive
measures used to obtain compliance with prison rules,
and (2) punishment that goes beyond a mere coercive
measure and puts the prisoner’s health at risk. Id.
And the Court also noted repeated instances of officers
“ignoring [the regulation] with impunity,” which “tends
to prove that the requirement was merely a sham” or
“that they were fully aware of the wrongful character
of their conduct.” Id. at 744.
Cates cites no relevant Ninth Circuit holding that
reinforces the prison regulation. Nor does she identify
a pattern of prison officials flouting the relevant
regulation. Instead, she cites only the regulation as a
basis to clearly establish her right to withdraw her
consent to the search and leave. As the district court
noted below, the violation of prison regulations alone
cannot be the basis for clearly establishing a novel
constitutional right.
App. 38a. A constitutional
mandate does not follow from the requirements of a
prison regulation. Otherwise, every prison regulation
would be transformed into a constitutionally protected
liberty interest.

17
Finally, Cates turns to a discussion of the Sixth
Circuit’s decision in Spear v. Sowders, 71 F.3d 626 (6th
Cir. 1995) (en banc), and the Eighth Circuit’s decision
in Marriott By and Through Marriott v. Smith, 931
F.2d 517 (8th Cir. 1991), to support her argument. Pet.
at 24-26. Her reliance on those cases is a retread of her
argument that out-of-circuit precedent should be
enough to satisfy the clearly established standard.
Her reliance on Spear and Marriott to establish a
split of authority is unavailing. First, Marriott is easily
distinguished because it involved a search that
occurred after the prison visit was over. It therefore
says nothing on the issue decided here: whether the
Fourth Amendment requires that a prison visitor be
given the option of leaving before the visit occurs to
avoid a strip search. Mariott, 931 F.2d at 520.
Second, both cases pre-date this Court’s statement
in al-Kidd that existing precedent must put the issue
“beyond debate” absent controlling authority that is on
point. 563 U.S. at 741. This is particularly important
to understanding the Sixth Circuit’s analysis in Spear.
There, the circuit court recognized that the clearly
established right at issue was the right to be free from
detention without probable cause. Spear, 71 F.3d at
632. And then the Court extended that right to find a
new right: that the defendant had to be given the
option of leaving the prison rather than facing—in that
case—an even more invasive digital cavity search. Id.
at 629, 632.
But the Ninth Circuit’s analysis of its own
precedent on searches of “would-be” airline passengers
shows that—at least prior to the new opinion in this

18
case—reasonable officers could believe that the Fourth
Amendment did not require them to give a prison
visitor the opportunity to leave the prison before a
scheduled visit—if the officers had reasonable
suspicion to believe the visitor intended to introduce
contraband into the prison. In other words, under this
Court’s decision in al-Kidd, before the Ninth Circuit’s
opinion here, the existence of Cates’ right to decline
consent to search and leave was an open and
reasonably debatable question in the Ninth Circuit.
And the Ninth Circuit must follow this Court’s
opinions, not the Sixth Circuit’s.
For these reasons, Cates fails to establish a viable
split of authority on when general principles
sufficiently define a clearly established right to a
specific set of facts that warrants this Court’s review.
This Court should deny review on the second question
presented.
III.

THE N INTH C IRCUIT ’S O PINION F ITS
C OMFORTABLY WITHIN THE SCOPE O F
QUALIFIED IMMUNITY, MAKING THIS CASE A
POOR VEHICLE FOR DECIDING ALL THREE
QUESTIONS PRESENTED.

The Ninth Circuit addressed whether the Fourth
Amendment independently requires corrections
officials to give a visitor the option of leaving, rather
than being subject to a strip search for safety and
security reasons. App. 11a-24a. But as Judge Watford
acknowledged in questioning Cates’ counsel at oral
argument, Cates did not plead facts asserting a
violation of the Fourth Amendment based on the
failure to give Cates the option of leaving to avoid the

19
search. Recording of Oral Argument, Cates v. Stroud,
No. 18-17026, at 2:00 (May 29, 2020), https://www.ca9.
uscourts.gov/media/video/?20200529/18-17026/ (last
visited July 27, 2021); see also 2 EOR 034. And Cates
never presented any of the questions presented in her
briefing before this Court to the Ninth Circuit.
Appellant’s Opening Brief, Cates v. Stroud, No. 1817026 (9th Cir., Dec. 17, 2018) (Dkt. 8). Because Cates
did not plead the claim her petition is based on or
present the appellate court with the issues she asks
this Court to review, the NDOC Defendants were
deprived of fair notice of, and an opportunity to defend
against, the claim the Ninth Circuit decided.2
For these reasons, this case is a particularly poor
vehicle for addressing the questions presented. Each
of those questions is dependent upon a claim Cates
never pleaded in the district court and arguments she
never made in her appellate briefing. Those arguments
and issues were instead developed for her by the Ninth
Circuit.
The Ninth Circuit’s textbook application of relevant
governing principles of qualified immunity likewise
makes this case a poor vehicle for addressing the
questions presented, including Cates’ plea for a
wholesale abandonment or modification of the doctrine
of qualified immunity. The Ninth Circuit’s analysis fits
comfortably within the core of the doctrine’s purpose
2

Additionally, even though the Ninth Circuit ultimately affirmed
in the NDOC Defendants’ favor, it was improper for the Ninth
Circuit to conjure up a claim that Cates failed to even plead. See,
e.g., United States v. Sineneng-Smith, 140 S. Ct. 1575 (2020)
(reversing on violation of the principle of party presentation).

20
and the guideposts this Court has established for
applying the relevant principles of qualified immunity.
The aim of qualified immunity is to make sure that
public officials remain accountable but retain the
necessary ability to make reasonable decisions based
on existing law without fear that they will be haled into
court every time they make a mistake. Harlow v.
Fitzgerald, 457 U.S. 800, 813-29 (1982). This point is
particularly important in the management of prisons.
This Court has instructed that “the problems that arise
in the day-to-day operation of a corrections facility are
not susceptible of easy solutions,” and “[p]rison
administrators therefore should be accorded wideranging deference in the adoption and execution of
policies and practices that in their judgment are
needed to preserve internal order and discipline and to
maintain institutional security.” Bell v. Wolfish, 441
U.S. 520, 547 (1979).
The Ninth Circuit achieved the twin aims of
qualified immunity in this case. It exercised its
discretion to conduct a merits analysis under the first
prong of the qualified immunity analysis, while finding
that the right it defined had not yet been clearly
established within the Ninth Circuit. Pearson v.
Callahan, 555 U.S. 223, 236 (2009). This allowed the
court to resolve an open question of federal
constitutional law, clearly establishing that not giving
a prison visitor the option of foregoing their visit to
avoid an invasive strip search violates the Fourth
Amendment in the Ninth Circuit.
Cates has identified some legitimate challenges to
the viability of qualified immunity. But this is not the

21
case in which to decide those issues. This is not the
case in which to undertake review of qualified
immunity as a whole. This is not a case on the fringes
of the doctrine that exposes obvious abuse of qualified
immunity to avoid blatant constitutional violations.
The Ninth Circuit correctly recognized that, while its
conclusion on the underlying Fourth Amendment
question “follows naturally from our precedent on
prison searches and on screening measures in sensitive
facilities more generally,” existing authority did not
make that outcome so clear that reasonable officers
would have known that their conduct was unlawful.
App. 18a, 24a-25a.
CONCLUSION
This Court should deny the petition.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
FRANK A. TODDRE II
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
September 2021

Counsel for Respondents

